<html>
<title> - PROHIBITING OBSCENE ANIMAL CRUSH VIDEOS IN THE WAKE OF UNITED STATES v. STEVENS</title>
<body><pre>[Senate Hearing 111-875]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 111-875
 
PROHIBITING OBSCENE ANIMAL CRUSH VIDEOS IN THE WAKE OF UNITED STATES v. 
                                STEVENS

=======================================================================



                                HEARING

                               before the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 15, 2010

                               __________

                          Serial No. J-111-108

                               __________

         Printed for the use of the Committee on the Judiciary



                  U.S. GOVERNMENT PRINTING OFFICE
64-411                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
HERB KOHL, Wisconsin                 JEFF SESSIONS, Alabama
DIANNE FEINSTEIN, California         ORRIN G. HATCH, Utah
RUSSELL D. FEINGOLD, Wisconsin       CHARLES E. GRASSLEY, Iowa
ARLEN SPECTER, Pennsylvania          JON KYL, Arizona
CHARLES E. SCHUMER, New York         LINDSEY GRAHAM, South Carolina
RICHARD J. DURBIN, Illinois          JOHN CORNYN, Texas
BENJAMIN L. CARDIN, Maryland         TOM COBURN, Oklahoma
SHELDON WHITEHOUSE, Rhode Island
AMY KLOBUCHAR, Minnesota
EDWARD E. KAUFMAN, Delaware
AL FRANKEN, Minnesota
            Bruce A. Cohen, Chief Counsel and Staff Director
             Brian A. Benzcowski, Republican Staff Director



                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Feinstein, Hon. Dianne, a U.S. Senator from the State of 
  California, prepared statement.................................    30
Kyl, Hon. Jon, a U.S. Senator from the State of Arizona..........     1
Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont, 
  prepared statement.............................................    47

                               WITNESSES

Perry, Nancy, Vice President for Government Affairs, The Humane 
  Society of the United States, Washington, DC...................     3
Volkan, Kevin, Chair and Professor of Psychology, California 
  State University Channel Islands, Camarillo, California........     4

                       SUBMISSIONS FOR THE RECORD

American Civil Liberties Union, Laura W. Murphy, Director, 
  Washington Legislative Office and Michael W. Macleod-Ball, 
  Chief Legislative and Policy Counsel, Washington, DC, statement    10
Animal Welfare Institute, Cathy Liss, President, Washington, DC, 
  letter.........................................................    15
Association of Prosecuting Attorneys, David LaBahn, President and 
  Chief Executive Officer, Washington, DC, letter................    16
Ballenger, J. Scott, Partner, Latham & Watkins LLP, Washington, 
  DC, statement..................................................    18
Burr, Hon. Richard, a U.S. Senator from the State of Illinois, 
  prepared statement.............................................    28
Hanna, Cheryl, Professor, Vermont Law School, South Royalton, 
  Vermont, statement.............................................    35
Perry, Nancy, Vice President for Government Affairs, The Humane 
  Society of the United States, Washington, DC, statement........    48
    Addendum A...................................................    56
    Addendum B...................................................    84
Suffolk County S.P.C.A., Roy Gross, Chief of Department, 
  Smithtown, New York, statement.................................    91
Volkan, Kevin, Chair and Professor of Psychology, California 
  State University Channel Islands, Camarillo, California, 
  statement......................................................    93


PROHIBITING OBSCENE ANIMAL CRUSH VIDEOS IN THE WAKE OF UNITED STATES V. 
                                STEVENS

                              ----------                              


                     WEDNESDAY, SEPTEMBER 15, 2010

                                       U.S. Senate,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10 a.m., in room 
SD-226, Dirksen Senate Office Building, Hon. Jon Kyl, 
presiding.
    Present: Senator Kyl.

  OPENING STATEMENT OF HON. JON KYL, A U.S. SENATOR FROM THE 
                        STATE OF ARIZONA

    Senator Kyl. This hearing before the Senate Committee on 
the Judiciary will come to order. I am Senator Jon Kyl. I am a 
member of the minority but have worked with the majority to 
ensure that this hearing can be held whether or not members of 
the majority are here. So I will conduct the hearing unless a 
member of the majority arrives.
    I want to thank everyone for being here. This is an 
important hearing on prohibiting obscene animal crush videos in 
the wake of the U.S. Supreme Court case U.S. v. Stevens. Let me 
make a brief opening statement. Then I will swear in our two 
witnesses, and I look forward to their testimony.
    Animal crush videos depict some of the most extreme animal 
cruelty in existence. Typical animal crush videos feature 
women, often clad in high heels, crushing live, helpless 
animals to death with their feet. The videos are usually filmed 
from an angle that conceals the perpetrator's identity. The 
videos are said to appeal to a sick subset of persons with a 
specific sexual fetish.
    Congress banned the creation or distribution of animal 
crush videos in 1999 with the enactment of 18 U.S.C. Section 
48. In April of this year, however, the U.S. Supreme Court in 
United States v. Stevens struck down the 1999 Act on First 
Amendment grounds, holding that the statute was 
unconstitutionally overbroad and that it applied to a 
substantial amount of protected speech. In other words, Section 
48 was so broadly worded, the Court said its enforcement could 
reach many kinds of portrayals that did not even involve 
cruelty and might not involve illegal activity, including 
hunting videos that are widely distributed and have some 
redeeming social value.
    The Stevens case did not involve crush videos, and the 
Court specifically stated that it was not deciding whether a 
statute limited to crush videos or other depictions of extreme 
animal cruelty would be constitutional. Instead, it left the 
door open for Congress to enact a narrowly tailored ban on 
animal crush videos that passes constitutional muster.
    In the wake of the Stevens case, crush videos are again 
being marketed and sold on the Internet, the primary mechanism 
for their distribution in interstate and foreign commerce. 
Despite the fact that every State and the District of Columbia 
have animal cruelty laws, the proliferation of animal crush 
videos is a problem that cannot adequately be addressed by 
them. A number of challenges to prosecution exist, including 
difficulties in determining when and where the crimes occurred 
and in identifying the perpetrator since feet and the crushing 
of the animals are usually the only images on the video.
    Concerned about this recent proliferation and the 
inadequacy of State animal cruelty laws to address the problem, 
the House took a first crack at a new ban by passing the 
Prevention of Interstate Commerce in Animal Crush Videos Act of 
2010, H.R. 5566, sponsored by Representative Gallegly, who has 
been a leader in fighting animal cruelty. I am working with him 
and my colleagues Senators Merkley and Burr in the Senate here 
with this Committee to be sure that we can craft a ban that 
prohibits this extreme animal cruelty that will survive 
judicial scrutiny.
    Today the Committee will receive testimony from two 
witnesses: Nancy Perry, who is Vice President for Government 
Affairs for the Humane Society of the United States; and Dr. 
Kevin Volkan, a psychologist and professor at California State 
University Channel Islands. As we all know, the Humane Society 
has been a longstanding champion against animal cruelty and is 
intimately familiar with the problem of animal crush videos. 
Dr. Volkan is an expert in atypical psychopathology. He will 
help us to understand more fully the sexual component of animal 
crush videos.
    So let me now ask the two of you to stand and be sworn. Do 
you swear that the testimony you are about to give before the 
Committee will be the truth, the whole truth, and nothing but 
the truth, so help you God?
    Ms. Perry. I do.
    Mr. Volkan. I do.
    Senator Kyl. I thank you and I appreciate your willingness 
to come here to help edify the Committee. The fact that there 
are not other members here does not signify a lack of interest 
as much as the fact that we are pulled and tugged in a lot of 
different directions. I will be talking to my colleagues about 
this, and certainly the transcript will be available for 
everyone, including the answers to the questions, and others 
will have an opportunity to ask you questions for a few days 
after the hearing, and I would appreciate your being willing to 
try to respond to those questions.
    Ms. Perry, let me start with you, and then Dr. Volkan, and 
then I will have some questions for the two of you. Thank you.

    STATEMENT OF NANCY PERRY, VICE PRESIDENT FOR GOVERNMENT 
 AFFAIRS, THE HUMANE SOCIETY OF THE UNITED STATES, WASHINGTON, 
                               DC

    Ms. Perry. Thank you so much, Senator Kyl. I really 
appreciate the opportunity to be here today.
    As you said, my name is Nancy Perry. I am Vice President of 
Government Affairs for the Humane Society of the United States. 
We are the nation's largest animal protection organization, 
with more than 11 million supporters nationwide. That 
translates to 1 in every 28 Americans, and as you have 
mentioned, we have been working to address animal cruelty for 
more than 50 years now as an organization, and for more than a 
decade we have been focusing on cracking down on these animal 
crush videos.
    It is absolutely critical that we remedy this dire 
situation involving the worst cruelty we have ever uncovered. 
It is shocking. It is abhorrent. It is the stuff that 
nightmares are made of, as many people in this room will 
attest. And just so everyone knows what we are talking about, I 
will just explain yet again what a crush video is.
    A typical animal crush video will show a scantily clad, 
high-heeled woman stomping, squishing, and impaling animals to 
death. The animals are often secured so they cannot escape, but 
are free enough to move so that their writhing in agony is 
clear to the viewer. This sickening torment is drawn out for 
many minutes intentionally and even for hours, during which 
time the animal's cries, moans, and squeals are actually 
highlighted along with their excretions of blood, urine, 
intestines, and even organs as they are crushed to death.
    Until recently, the sale of videos like this was illegal. 
In 1999, as you have mentioned, Congress banned crush video 
sales, and they all but disappeared from the Internet. However, 
recent court decisions struck down that law, creating a 
resurgence of animal crush videos on the Internet.
    Our 2009 investigation found that videos with rabbits, 
puppies, kittens, and other animals are readily available for 
sale on the Internet. Crush viewers can even place custom 
orders, articulating which type of animal they want to see 
tortured and what type of torture they want to see.
    This July, we received a tip from a Russian investigator, 
who found numerous crush videos for purchase for as little as 
$80 using PayPal and Western Union. These clips show young 
girls maiming and killing dogs, goats, monkeys, rabbits, and 
pigs. And I apologize, but it is important that we hear at 
least one description of a video that is for sale online today.
    A smiling girl in stilettos pokes her sharp heel through a 
live dog's eye socket. The dog's front legs are tied behind his 
back and his mouth is tied shut, but he screams and screams in 
horrendous pain as the girl relentlessly stabs her heel through 
his eye socket. At one point, her heel goes all the way in and 
makes a cracking sound, and the dog is still alive and 
screaming.
    These videos appeal to a particular sexual deviancy. The 
women carrying out the slow, deliberate torture often talk to 
the animals in a dominatrix patter or other sexual tones. 
Camera angles are used to create the sensation for the viewer 
that they are in the place of the tortured animal, looking up 
at the woman's body, keying into a crush fantasy.
    My written testimony contains a host of such sickening 
examples and provides ample evidence of the sexual and cruel 
nature of these videos. Most importantly today, this resurgence 
is real and requires a response from Congress to spare the 
lives of thousands of animals waiting right now in torture dens 
until their number is up.
    The HSUS worked closely with sponsors in the House to 
develop anti-crush legislation soon after the Supreme Court 
decision, and we are pleased that the House quickly passed H.R. 
5566 by an overwhelming vote of 416-3 this July. So now it is 
up to the Senate and your leadership to move quickly to prevent 
the horrendous torture of more animals.
    The Association of Prosecuting Attorneys, whose letter I 
would like to submit for the record today, states: ``Those who 
produce and market these videos and those who carry out the 
animal cruelty in the videos do so in order to profit from 
appealing to the prurient interests of those with a sexual 
fetish involving specific forms of animal cruelty and 
suffering. The acts of animal cruelty captured on film would 
likely not be committed but for the production of the crush 
videos that can bring a profit in interstate commerce.''
    We know that this is one area where a law on the books can 
make an immediate and tangible difference, and so we truly 
appreciate your efforts and your leadership.
    Thank you very much.
    [The prepared statement of Ms. Perry appears as a 
submission for the record.]
    [The letter appears as a submission for the record.]
    Senator Kyl. Thank you.
    Professor Volkan.

 STATEMENT OF KEVIN VOLKAN, CHAIR AND PROFESSOR OF PSYCHOLOGY, 
    CALIFORNIA STATE UNIVERSITY CHANNEL ISLANDS, CAMARILLO, 
                           CALIFORNIA

    Mr. Volkan. Thank you, Senator Kyl, for inviting me here 
today to testify. I am here today with my colleague Dr. Neil 
Rocklin, who is sitting behind me, who co-authored the written 
testimony.
    My testimony today will focus on explaining the sexual 
nature of crush paraphilias and describing how crush videos are 
sexual in nature and that those who watch crush videos do so to 
obtain sexual gratification. And I should mention that 
paraphilia is the technically correct term. A lot of time these 
are called crush fetishes, but fetish is really a type of 
paraphilia. So I will be referring to them as paraphilias 
throughout.
    Paraphilias are sexual disorders that involve recurrent and 
intense sexually arousing fantasies, urges, or behaviors 
related to non-human objects, including animals, non-consenting 
persons or children, and the suffering and/or humiliation of 
oneself or a partner. Generally, to be considered pathological, 
paraphilias should result in clinically significant distress or 
impairment in social, occupational, or other areas of 
functioning.
    The following specific paraphilias are related to crush 
videos, and these would include fetishes, sexual sadism, and 
sexual masochism, and I will talk a little bit about each of 
these. In my professional opinion, the crush paraphilia and 
crush videos contain elements of these specific forms of 
paraphilia in varying degrees, and I believe that crush 
paraphilia and crush videos are clearly sexual in nature.
    A fetish is a strong recurrent sexual attraction to a non-
living object. The most common fetish objects are clothing such 
as underwear, shoes, boots, et cetera. With regard to crush 
paraphilia, the fetish aspect is most likely related to the 
object that is doing the crushing--it is usually a foot or a 
shoe--but can also be other things. Sometimes it can be the 
buttocks or a plank of wood, or in one case even a car. The 
crush paraphilia can be thought of as an extreme version of 
something like a foot fetish where individuals with the 
paraphilia derive sexual pleasure from watching the object of 
their desire crushing a living creature to death.
    Sexual sadism is where sexual gratification is achieved 
through the fantasy of harming a partner or as a consequence of 
directly subjecting a partner to pain or humiliation. 
Typically, sexual sadism involves a human partner. Obviously, 
in the case of crush paraphilia, the partner is an animal, of 
course, who is non-consenting. The animals used for sadistic 
purposes range from insects to larger mammals such as dogs, and 
many crush videos use small mammals such as mice, rats, 
puppies, and kittens. But regardless of the victim, the causes 
and the purposes and the ends of these crush videos are still 
the same.
    It should also be mentioned that those involved in the 
creation and distribution of crush videos may themselves be 
sadists. It should be noted that there is a well-established 
relationship between animal sadism, antisocial personality 
disorder, which used to be called sociopathy, and violent 
crime. Sadistic acts perpetrated against animals may be an 
important indicator of someone who is capable of violent crime 
against human beings.
    Sexual masochism is a feeling of sexual arousal or 
excitement resulting from receiving pain, suffering, or 
humiliation. Many of those involved in crush paraphilia take 
sexual pleasure in being crushed, squashed, or being put under 
pressure. Masochists often suffer from personality disorders in 
which they are only able to experience feelings in the context 
of situations where they are hurt or in pain. In terms of crush 
paraphilia, the masochistic aspect is an identification with 
the animals being tortured or killed, actually seeing 
themselves as the animal being crushed, and these individuals 
obtain sexual gratification through this identification.
    It should be mentioned, like other paraphilias, crush 
paraphilia primarily involve men, and crush videos primarily 
appeal to men and are of most interest when the person doing 
the crushing is a woman. The theoretical reasons for this are 
outlined in my written testimony.
    I would like to mention treatment. Typically, people who 
have a paraphilia do not seek treatment unless the paraphilia 
has resulted in legal consequences--in other words, unless they 
have been arrested and forced to go into treatment by the 
court. Paraphilias, especially the more egregious types such as 
pedophilia, are notoriously difficult to treat with high rates 
of relapse. One of the problems with successfully treating 
individuals with paraphilia is that they have a high rate of 
co-morbid mental disorders. Given the rather more primitive 
nature of the crush paraphilia and its high level of social 
unacceptability, it is likely that most individuals involved 
with crush paraphilia will not seek treatment or even be 
willing to acknowledge that they engage in this activity. These 
characteristics would indicate that there would be a strong 
commercial market for crush videos that can be watched in 
secret.
    I would like to conclude. Human males with certain abnormal 
psychological profiles have the capacity to learn to become 
sexually aroused by watching crush videos. The treatment 
prognosis for those involved in crush videos is very poor. 
Treatment is not likely to prevent the acquisition of a crush 
paraphilia, curb the current practice of this paraphilia, or 
prevent a relapse. Given the above characteristics associated 
with crush paraphilia, I believe that a prohibition on the sale 
of crush videos is one of the few ways in which the practice of 
crush paraphilias can be reduced.
    Thank you.
    [The prepared statement of Mr. Volkan appears as a 
submission for the record.]
    Senator Kyl. Thank you both very much. It is difficult to 
listen to testimony like this. It is obviously essential, not 
only to stop something that is enormously cruel to animals, but 
also to try to find ways to help those who may suffer from the 
disorders that you have discussed.
    The Supreme Court obviously needs to be very careful about 
its definitions of speech to ensure that real speech is not 
unduly inhibited and, thus, the reason for, I think, the 
limited decision that it rendered. But it has also afforded us 
the opportunity, if we make the right case for the right kind 
of statute, to have such a statute upheld.
    While we were working with the House of Representatives, we 
wanted to have the opportunity to perhaps refine even more the 
House legislation. I think because of the large vote in the 
House, if we make changes that are specifically designed to 
ensure that the bill will both be effective and will be upheld 
by the courts, that we should not have difficulty in getting 
House concurrence in that. So it will be our effort here using 
your testimony and additional aspects of the record to build 
the case for a very specific kind of statute that deals with a 
very specific kind of crime and disorder that can withstand 
constitutional scrutiny.
    So in that regard, let me just ask three or four questions 
that help to, I think, flesh out the information that you have 
provided to us, the excellent information both in your written 
statements and in your oral testimony here.
    First of all, for Ms. Perry, these animal crush videos fall 
within a category of speech in which there is an unusual and 
important relationship between speech and crime; that is, 
speech depicts a crime that was committed in order to depict a 
crime. Can you explain how the creation of animal crush videos 
is driving criminal conduct--in other words, the violation of 
State animal cruelty laws?
    Ms. Perry. Absolutely, Senator. That is a good question. 
Without a doubt, the anonymity of the use of the Internet 
provides fuel for the creation of these videos, and what we did 
see very clearly, we saw there were more than 2,000 crush 
videos readily available in 1999 prior to Congress' original 
law being enacted. And that industry essentially dried up as a 
result of a Federal protection being on the books. And then as 
testified, we saw this tremendous resurgence.
    What we think is necessary is Federal action on this, 
because at the State level, as the Association of Prosecuting 
Attorneys clearly stated, it is very difficult to obtain a 
prosecution. Even though these are State crimes, the way these 
videos are created is fully to conceal the identity of the 
individuals perpetrating the crime because you are just seeing 
body parts. There is not any identifying information. It is 
sold over the Internet, which is obviously available everywhere 
and utterly ubiquitous. So it is critical that we have a 
Federal prohibition on the sales. That is the only way to 
actually get at this problem.
    Senator Kyl. And a key here is that the conduct occurs 
specifically because they can and they do sell them over the 
Internet.
    Ms. Perry. That is right.
    Senator Kyl. And you also said, if I recall your testimony, 
that there are actually situations in which they tailor--in 
which some of these traffickers offer to tailor their videos to 
specific requests.
    Ms. Perry. That is correct. The videos are produced for the 
market on the Internet, not for other purposes, and they are 
custom-produced for individuals who put in an order and within 
48 hours a video will be created, which shows you how many 
animals are sitting waiting before they are tortured.
    Senator Kyl. Now, you heard Dr. Volkan's testimony, and I 
think you have some familiarity also with this underlying 
problem with a lot of the people who traffic in this. Can you 
explain any investigations the Human Society has done or what 
those investigations have revealed about the nature of the 
market for these videos in particular with regard to their 
appeal to deviant sexual interest?
    Ms. Perry. Absolutely. We undertook several investigations. 
The more recent one which showed the resurgence was reported on 
May 22, 2009. And in this investigation, we uncovered hundreds 
and hundreds of videos. And, of course, we are a nonprofit 
organization, and as large as we are, we still cannot take on 
overseeing this entire industry. There is no way we can police 
it on a day-to-day basis.
    But in the investigations we have undertaken, we are 
shocked at the volume of videos that are now available. A 
single website can have links to multiple other websites, and 
those multiple other websites can each purvey hundreds of 
videos. And in each of those videos, multiple animals will be 
killed. So the numbers stack up exponentially with this.
    It is obvious that the nature of this business is 
responsive to Federal law, because the trend that we saw was a 
dry-up when the Federal law existed and a resurgence almost 
immediately after the law was struck down. From what we 
understand, within a month of the Third Circuit decision coming 
out, we saw squishpuppy.com and squishkitty.com come online. 
This is very responsive to Federal law. And I think Dr. Volkan 
in his testimony, in his written testimony, indicates that 
individuals with this predisposition are sensitive to the 
legality, and that might be the one thing that would cause them 
to seek treatment.
    Senator Kyl. And that is, of course, one of the reasons why 
we would be wanting to pursue this.
    Now, you alluded to something else I wanted to pursue a 
little bit. The House bill applies only to visual depictions of 
an animal being crushed, burned, drowned, suffocated, or 
impaled. This list obviously does not involve all forms of 
cruelty toward animals.
    Have your investigations discovered crush videos that 
involve other types of violence, for example, videos in which 
the animal is cut or stabbed?
    Ms. Perry. Yes. Unfortunately, we saw several videos where 
there is cutting, there is burning, there are other forms of 
torture employed.
    Senator Kyl. Okay. Obviously, the reason for that is to try 
to find how we want to define what would be prohibited here, to 
include all of those things that are involved.
    Ms. Perry. Yes, we want to be comprehensive, although I do 
think that the vast majority of these videos do involve the 
crushing.
    Senator Kyl. And, Dr. Volkan, in your testimony today we 
learned that these animal crush videos do not involve actual 
sexual intercourse, or at least typically. Is it your 
professional opinion that animal crush videos are, 
nevertheless, sexual in content and, therefore, can fall within 
the definitions of obscenity which sometimes are the basis for 
courts looking at the issue?
    Mr. Volkan. That is a very good question, Senator. I am not 
an expert to speak to the legal definitions of obscenity, but I 
can say in my professional opinion that these videos are 
produced almost purely for the object of sexual gratification 
of the people who are watching these videos. They are clearly 
sexual in nature.
    Senator Kyl. And just to be clear--I have not gone through 
all of your qualifications, but it is in your resume. Can you 
describe just a little bit of how you have come to these 
conclusions?
    Mr. Volkan. Sure. Basically, I teach a class on atypical 
psychopathologies which include a whole list of things that we 
typically call bizarre behaviors and some things that are 
culture-bound syndromes. And of these things, paraphilias are a 
large category, and they are the bizarre behaviors, the deviant 
behaviors that unfortunately we see a lot of in our society. 
They are really quite prevalent. Most of these things are 
really quite mild. They are not serious. But we do have some, 
like pedophilia, like crush paraphilias, that are very, very 
serious and obviously have a lot of socially unacceptable 
aspects to them.
    And so, you know, by teaching the class, through my 
clinical practice, I have come across some of these things and 
learned about these things over the years.
    Senator Kyl. So you have studied literature. You have had 
firsthand experience through your own practice and have made 
this part of your professional understanding and teaching.
    Mr. Volkan. Yes. I have not actually treated somebody with 
a crush paraphilia, but I have treated people with different 
paraphilias.
    Senator Kyl. And you have certainly studied the literature 
on the subject.
    Mr. Volkan. Yes, I have studied the literature pretty 
extensively at this point.
    Senator Kyl. Well, again, this is a subject that I think 
the Congress wants to deal with as quickly as we can in a way 
that will ensure this time that we get it right, the courts 
will uphold what we do so that we can prevent the kind of 
cruelty that is involved here, and hopefully help people who 
suffer from the sexual deviancy that you have identified.
    If my colleagues have questions, we will leave the record 
open for a few days here to permit them to ask you questions, 
and I may think of something else that we need to ask.
    The statements are part of the record. The letter that you 
submitted is part of the record.
    I also want to put a statement into the record that Senator 
Feinstein has offered in support of what we are doing here.
    [The prepared statement of Senator Feinstein appears as a 
submission for the record.]
    Senator Kyl. Also, we will insert in the record a statement 
by Senator Burr.
    [The prepared statement of Senator Burr appears as a 
submission for the record.]
    Senator Kyl. Do either of you have anything else that you 
would like to offer at this time?
    I certainly want to thank you for your concern about the 
issue and for your testimony. This is exactly the kind of 
hearing that may be the most productive for us: short, 
concentrated, to the point, and hopefully very effective.
    Ms. Perry. Thank you for your leadership.
    Mr. Volkan. Thank you. Thank you, Senator.
    Senator Kyl. You are very welcome, and I appreciate those 
of you in the audience being here as well.
    This hearing will now stand adjourned.
    [Whereupon, at 10:26 a.m., the Committee was adjourned.]
    [Submissions for the record follow.]
    [GRAPHIC] [TIFF OMITTED] 64411.001
    
    [GRAPHIC] [TIFF OMITTED] 64411.002
    
    [GRAPHIC] [TIFF OMITTED] 64411.003
    
    [GRAPHIC] [TIFF OMITTED] 64411.004
    
    [GRAPHIC] [TIFF OMITTED] 64411.005
    
    [GRAPHIC] [TIFF OMITTED] 64411.006
    
    [GRAPHIC] [TIFF OMITTED] 64411.007
    
    [GRAPHIC] [TIFF OMITTED] 64411.008
    
    [GRAPHIC] [TIFF OMITTED] 64411.009
    
    [GRAPHIC] [TIFF OMITTED] 64411.010
    
    [GRAPHIC] [TIFF OMITTED] 64411.011
    
    [GRAPHIC] [TIFF OMITTED] 64411.012
    
    [GRAPHIC] [TIFF OMITTED] 64411.013
    
    [GRAPHIC] [TIFF OMITTED] 64411.014
    
    [GRAPHIC] [TIFF OMITTED] 64411.015
    
    [GRAPHIC] [TIFF OMITTED] 64411.016
    
    [GRAPHIC] [TIFF OMITTED] 64411.017
    
    [GRAPHIC] [TIFF OMITTED] 64411.018
    
    [GRAPHIC] [TIFF OMITTED] 64411.019
    
    [GRAPHIC] [TIFF OMITTED] 64411.020
    
    [GRAPHIC] [TIFF OMITTED] 64411.021
    
    [GRAPHIC] [TIFF OMITTED] 64411.022
    
    [GRAPHIC] [TIFF OMITTED] 64411.023
    
    [GRAPHIC] [TIFF OMITTED] 64411.024
    
    [GRAPHIC] [TIFF OMITTED] 64411.025
    
    [GRAPHIC] [TIFF OMITTED] 64411.026
    
    [GRAPHIC] [TIFF OMITTED] 64411.027
    
    [GRAPHIC] [TIFF OMITTED] 64411.028
    
    [GRAPHIC] [TIFF OMITTED] 64411.029
    
    [GRAPHIC] [TIFF OMITTED] 64411.030
    
    [GRAPHIC] [TIFF OMITTED] 64411.031
    
    [GRAPHIC] [TIFF OMITTED] 64411.032
    
    [GRAPHIC] [TIFF OMITTED] 64411.033
    
    [GRAPHIC] [TIFF OMITTED] 64411.034
    
    [GRAPHIC] [TIFF OMITTED] 64411.035
    
    [GRAPHIC] [TIFF OMITTED] 64411.036
    
    [GRAPHIC] [TIFF OMITTED] 64411.037
    
    [GRAPHIC] [TIFF OMITTED] 64411.038
    
    [GRAPHIC] [TIFF OMITTED] 64411.039
    
    [GRAPHIC] [TIFF OMITTED] 64411.040
    
    [GRAPHIC] [TIFF OMITTED] 64411.041
    
    [GRAPHIC] [TIFF OMITTED] 64411.042
    
    [GRAPHIC] [TIFF OMITTED] 64411.043
    
    [GRAPHIC] [TIFF OMITTED] 64411.044
    
    [GRAPHIC] [TIFF OMITTED] 64411.045
    
    [GRAPHIC] [TIFF OMITTED] 64411.046
    
    [GRAPHIC] [TIFF OMITTED] 64411.047
    
    [GRAPHIC] [TIFF OMITTED] 64411.048
    
    [GRAPHIC] [TIFF OMITTED] 64411.049
    
    [GRAPHIC] [TIFF OMITTED] 64411.050
    
    [GRAPHIC] [TIFF OMITTED] 64411.051
    
    [GRAPHIC] [TIFF OMITTED] 64411.052
    
    [GRAPHIC] [TIFF OMITTED] 64411.053
    
    [GRAPHIC] [TIFF OMITTED] 64411.054
    
    [GRAPHIC] [TIFF OMITTED] 64411.055
    
    [GRAPHIC] [TIFF OMITTED] 64411.056
    
    [GRAPHIC] [TIFF OMITTED] 64411.057
    
    [GRAPHIC] [TIFF OMITTED] 64411.058
    
    [GRAPHIC] [TIFF OMITTED] 64411.059
    
    [GRAPHIC] [TIFF OMITTED] 64411.060
    
    [GRAPHIC] [TIFF OMITTED] 64411.061
    
    [GRAPHIC] [TIFF OMITTED] 64411.062
    
    [GRAPHIC] [TIFF OMITTED] 64411.063
    
    [GRAPHIC] [TIFF OMITTED] 64411.064
    
    [GRAPHIC] [TIFF OMITTED] 64411.065
    
    [GRAPHIC] [TIFF OMITTED] 64411.066
    
    [GRAPHIC] [TIFF OMITTED] 64411.067
    
    [GRAPHIC] [TIFF OMITTED] 64411.068
    
    [GRAPHIC] [TIFF OMITTED] 64411.069
    
    [GRAPHIC] [TIFF OMITTED] 64411.070
    
    [GRAPHIC] [TIFF OMITTED] 64411.071
    
    [GRAPHIC] [TIFF OMITTED] 64411.072
    
    [GRAPHIC] [TIFF OMITTED] 64411.073
    
    [GRAPHIC] [TIFF OMITTED] 64411.074
    
    [GRAPHIC] [TIFF OMITTED] 64411.075
    
    [GRAPHIC] [TIFF OMITTED] 64411.076
    
    [GRAPHIC] [TIFF OMITTED] 64411.077
    
    [GRAPHIC] [TIFF OMITTED] 64411.078
    
    [GRAPHIC] [TIFF OMITTED] 64411.079
    
    [GRAPHIC] [TIFF OMITTED] 64411.080
    
    [GRAPHIC] [TIFF OMITTED] 64411.081
    
    [GRAPHIC] [TIFF OMITTED] 64411.082
    
    [GRAPHIC] [TIFF OMITTED] 64411.083
    
    [GRAPHIC] [TIFF OMITTED] 64411.084
    
    [GRAPHIC] [TIFF OMITTED] 64411.085
    
    [GRAPHIC] [TIFF OMITTED] 64411.086
    
    [GRAPHIC] [TIFF OMITTED] 64411.087
    
    [GRAPHIC] [TIFF OMITTED] 64411.088
    
    [GRAPHIC] [TIFF OMITTED] 64411.089
    
    [GRAPHIC] [TIFF OMITTED] 64411.090
    
    [GRAPHIC] [TIFF OMITTED] 64411.091
    
    [GRAPHIC] [TIFF OMITTED] 64411.092
    
    [GRAPHIC] [TIFF OMITTED] 64411.093
    
                                 <all>

</pre></body></html>
